2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

@OCKLE

Tr

E-Mail Address:

Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com
No.
ARNOLD FLECK,
Petitioner,

Vv.

JOE WETCH; AUBREY FIEBELKORN-ZUGER;

TONY WEILER; and PENNY MILLER,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7605 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public

bees 0 llte Qutiwh, ble

Affiant 38725
